                                     Office of Inspector General
                                    Corporation for National and
                                             Community Service




         Follow-up Review of the Corporation
         for National and Community Service's
         Purchase and Travel Card Programs

                  OIG Report Number 07-19




                            Prepared by: 

                  Office of Inspector General 





This report was issued to Corporation management on July 19, 2007. The Corporation’s response
to the draft report noted agreement with the recommendation and is considered to be the Proposed
Management Decision, Management Decision and Notice of Final Action.
                          OFFICE OF INSPECTOR GENERAL

                                          July 19, 2007


TO:           Jerry Bridges
              Chief Financial Officer

FROM:         Carol Bates (signature on file)
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 07-19, Follow-Up Review of the Corporation for National and
              Community Service’s Purchase and Travel Card Programs


The Office of Inspector General (OIG) has completed its follow-up review of the Corporation for
National and Community Service’s (Corporation) Purchase Card and Travel Card Programs.
The purpose of the review was to determine whether corrective actions were taken to close travel
and purchase card accounts for employees who have separated from the Corporation.

EXECUTIVE SUMMARY

The Corporation has generally implemented effective controls to ensure that purchase card
accounts are closed for personnel who have departed the agency. The Corporation still needs to
ensure that the Agency Program Coordinator (APC) is notified in a timely manner of all
employees with travel cards who are separating, or have separated, from the agency.

BACKGROUND

The revised Office of Management and Budget (OMB) Circular A-123, Appendix B, “Improving
the Management of Government Charge Card Programs”, dated February 2006, provides
guidance to Federal managers when using government charge cards to pay for goods and
services that support Federal missions. The circular establishes standard minimum requirements
and provides best practices for government charge card programs that may be supplemented by
individual agency policies and procedures. Agencies are required to provide data and
performance metrics reports to OMB annually. Reports must contain the dates of the most recent
and next scheduled independent review (e.g., Office of the Inspector General) for all agency
charge card programs.
In OIG Report 06-42, Review of the Corporation for National and Community Service’s
Purchase and Travel Card Programs, issued on August 7, 2006, the OIG recommended that the
Corporation develop a process for promptly closing travel card accounts for separated
employees. The Corporation agreed with that recommendation and stated that it would develop

                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                          Senior Corps   AmeriCorps   Learn and Serve America
Standard Operating Procedures for closing charge card accounts to ensure they are closed in a
timely manner.

As of May 2007, there were 61 Corporation purchase cardholders and 440 travel cardholders.
The Corporation’s purchase card and travel card functions are managed by the APC, whose
responsibility includes opening and closing charge card accounts for Corporation employees.
The APC reports to the Director of the Office of Procurement Services.

We conducted our follow-up review between May 7, 2007, and May 14, 2007.

RESULTS

During the review, we verified that all 61 purchase cardholders were current Corporation
employees. Therefore, we conclude that the Corporation has adequate controls over the closure
of purchase card accounts.

Of the 440 open travel card accounts, we found that four accounts were for employees who had
separated from the Corporation. The following table shows the date of resignation or retirement
of those employees.

                       Employee 1               Resigned 04-12-07
                       Employee 2                Retired 03-03-07
                       Employee 3               Resigned 10-27-06
                       Employee 4                Retired 01-03-07


The APC stated that notification was not provided to her by the Corporation’s Office of Human
Capital that the individuals, all of whom were former field office employees, were no longer
employed by the Corporation. Once notified by OIG, the APC closed the four travel card
accounts indicated above. The APC also closed an account that had previously been deactivated
for an employee who had separated from the Corporation. Travel card accounts that are not
closed on a timely basis leave the agency at possible risk for fraudulent use of the cards.

We also identified three current employees who had not notified the APC of a change in their
last names. During the review, the APC requested that those employees provide the appropriate
documentation to ensure that the credit card company (Bank of America) was notified of their
most current and accurate personal information.

RECOMMENDATION

We recommend that the Corporation develop a procedure to ensure that the Agency Program
Coordinator is notified in a timely manner of all employees, including those from field offices,
who are separating, or have separated, from the agency.




                                               2
CORPORATION’S RESPONSE

The Corporation concurred with the above recommendation and has taken actions to improve its
process for exiting employees. The Corporation recently created an automated pre-notification
exit form for supervisors that will inform the appropriate Corporation offices having a
responsibility as part of the exit process, including the APC, that an employee will soon be
leaving the Corporation. Also, the Corporation has revised the exit clearance form to explicitly
identify the responsibilities of both employees and clearance officials before they sign the
clearance form.

AUDITOR’S COMMENTS

The corrective actions described in the Corporation’s response concur with our recommendation.

We did not perform our work in accordance with generally accepted government auditing
standards. This follow-up review is considered non-audit services under generally accepted
government auditing standards, Appendix I, Section A3.03k.(3).

We consider the response in Appendix A to be the Corporation’s proposed management
decision, management decision and notice of final action.


cc:   Nicola Goren, Chief of Staff
      Ray Limon, Chief Human Capital Officer
      William Anderson, Deputy Chief Financial Officer for Financial Management
      Sherry Blue, Audit Resolution Coordinator
      Ronald Huritz, OIG Audit Manager
      Shamika Scott, OIG Auditor




                                               3
          APPENDIX A

CORPORATION’S RESPONSE TO REPORT




               4
Date:          June 28,2007

To:            Carol Bates, Assistant Inspector General for Audit

From:          Bill Anderson, Deputy CFO for Financial Manage

Subject:       Follow up Review of Purchase and Travel Card Programs (07-19)


        Thank you for the opportunity to comment on your follow up review of the
Corporation's Purchase and Travel Card Programs (OIG 07-19). We are pleased that
your review found that the Corporation has generally implemented effective controls to
ensure that the purchase card accounts are closed for personnel that depart the agency.
The report did note that the Corporation could improve its process to notify the travel
card Agency Point of Contact (APOC) of all employees who depart the Corporation. The
report recommended that the Corporation develop a procedure to ensure the timely
notification of the travel card APOC when employees depart.

         The Corporation agrees with the recommendation and has taken several steps to
improve its process for exiting employees. Recently the Office of Information
Technology, with assistance from the Office of Human Capital, created an automated
pre-notification exit form for supervisors that will iliform the appropriate Corporation
offices who have a responsibility within the exit process, including the APOC, that an
employee will soon be leaving the Corporation so actions can begin earlier and allow
staff to manage the exiting process more efficiently. In addition, we have revised the
Corporation's exit clearance form to explicitly identify the responsibilities of both
employees and clearance officials before signing the clearance form. We believe these
actions will ensure that employee access to Corporation resources will be terminated
upon their departure. (Corrective Action Completed)

cc:     Jeny Bridges, Chief Financial Officer
        Ray Limon, Chief Human Capital Officer
        Frank Trinity, General Counsel
        Rudy Mazariegos, Chief Information Officer
        Sherry Blue, Audit Resolution Coordinator




                         1201 New York Avenue, NW  *
                                                  Washington, DC 20525
                                            *
                               202-606-5000 www.nationalservice.org
                        Senior Corps * AmeriCorps * Learn and Serve America
                                                                                                                     L

                                                                                           The President's Call to Service
